 . . ..... . .....................................................~.~...~.~.~.~.~.~.~ii..i., ............
:.:.: ......................................................................................................
::::::::::::::s:::::~.::::::::~.::::::::::::::::::::::::::::::~:::::::::::::::::::::::::::::::::::::
 . ‘i.....:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.~.:.:.:.:.:.:.:.~......:.:.:
~.................................
                                                                                             .......
                                                                                         .: ...............
                                                                                ........................
:.:.:.:.: ........................................................
                                                                                      j::::::::::::::::::::
                                                                                      :c.:::::::::::::::
.~.~...................~...~.~.~.~.~.~.~.~.~.~.~.~.~.~.
.:.:.:.:.:.~:.:.~.:s.:
::::::::~:~:~.~:~~:~:~:~:     .....................
i:~:i:~:::~::::::::~~::::::::::::::::::
.:.:.):.:.:.:.~.:.:.:.:.:.:.:.~:.:.:
~:i:~.~~:~:~~:~:~.~~:~:~:~.




OFFICE OF THE INSPECTOR GENERAL



                                                                          DEFENSE BUSINESS OPERATIONS FUND
                                                                            INVENTORY RECORD ACCURACY




                  Report No. 98-072                                                                            February 12, 1998




                                                                            Department of Defense
Additional Copies

To obtain additional copies of this audit report, contact the Secondary Reports
Distribution Unit of the Analysis, Planning, and Technical Support Directorate at
(703) 6048908 (DSN 6648908) or FAX (703) 604-8932.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Planning and
Coordination Branch of the Analysis, Planning, and Technical Support Directorate
at (703) 604-8908 (DSN 664-8908) or FAX (703) 604-8932. Ideas and requests
can also be mailed to:
                    OAIG-AUD (ATTN: APTS Audit Suggestions)
                    Inspector General, Department of Defense
                    400 Army Navy Drive (Room 801)
                    Arlington, VA 22202-2884

 Defense Hotline

 To report fraud, waste, or abuse, contact the Defense Hotline by calling
 (800) 424-9098; by sending an electronic message to Hotline@DODIG. OSD .MIL;
 or by writing the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
 The identity of each writer and caller is fully protected.




Acronyms

CFO                 Chief Financial Officers
DBOF                Defense Business Operations Fund
DLA                 Defense Logistics Agency
ICPS                Inventory Control Point
IG                  Inspector General
NSN                 National Stock Number
                                                                      February 12, 1998
MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)
               DEPUTY UNDER SECRETARY OF DEFENSE
                 (LOGISTICS)
               DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                 SERVICE
               DIRECTOR, DEFENSE LOGISTICS AGENCY

SUBJECT: Audit Report on Defense Business Operations Fund Inventory Record
         Accuracy (Report No. 98-072


        We are providing this report for review and comments. This is the fourth in a
series of reports on FY 1996 inventory accounts of the Defense Business Operations
Fund. In preparing the final report, we considered comments from the Acting Deputy
Under Secretary of Defense (Logistics) and the Defense Logistics Agency on the draft
of this report.

         Comments from the Acting Deputy Under Secretary of Defense (Logistics) were
partially responsive. The Acting Deputy Under Secretary of Defense (Logistics)
proposed an alternative action that satisfied the intent of the recommendations.
However, the comments did not give completion dates for implementing the corrective
actions. DOD Directive 7650.3 requires that all recommendations be resolved
promptly. We request that the Acting Deputy Under Secretary of Defense (Logistics)
provide comments on the final report by April 13, 1998.

        Comments from the Defense Logistics Agency were responsive; therefore,
additional comments are not required.

        The courtesies extended to the audit staff are appreciated. Questions on the
audit should be directed to Mr. James L. Kornides, Audit Program Director, at
(614) 751-1400, extension 11, e-mail JKornides@DODIG.OSD.MIL, or
Mr. Joel K. Chaney, Audit Project Manager, at (216) 522-6091 (DSN 580-6091),
extension 235, e-mail JChaney@DODIG.OSD.MIL. See Appendix D for the report
distribution. The audit team members are listed inside the back cover.




                                        David K. Steensma
                                 Deputy Assistant Inspector General
                                           for Auditing
                        Office of the Inspector General, DOD
Report No. 98-072                                                    February 12, 1998
  Project No. 5FJ-2018.03

                        Defense Business Operations Fund
                           Inventory Record Accuracy
                               Executive Summary

Introduction. The inventory of the Defense Business Operations Fund consisted of
consumable and repairable materiel used by DOD Components and other Government
agencies to sustain operations. In FY 1996, inventory was the most significant asset
category in the Defense Business Operations Fund financial statements. At
September 30, 1996, Defense Business Operations Fund inventory totaled
$57.1 billion, or about 64 percent of the Defense Business Operations Fund assets.
This report is the fourth in a series of reports on inventory issues in the Defense
Business Operations Fund. Two earlier reports discussed inventory accounting
problems at the Defense Depots in Columbus, Ohio, and Susquehanna, Pennsylvania.
A third report discussed management controls over inventory at the Defense Logistics
Agency distribution depots. In December 1996, the Under Secretary of Defense
(Comptroller) announced that the Defense Business Operations Fund would be
realigned into separate Working Capital Funds. This realignment does not affect
matters discussed in this report. However, the realignment will affect the design of the
annual statistical sample discussed in Finding B.

Audit Objectives. The overall objective of the audit was to determine whether
inventory amounts on the FY 1996 Defense Business Operations Fund Consolidated
Financial Statements were presented fairly in accordance with the other comprehensive
basis of accounting described in Office of Management and Budget Bulletin No. 94-01,
“Form and Content of Agency Financial Statements,” November 16, 1993. We limited
the audit to evaluating the accuracy of the perpetual inventory records for on-hand
inventory maintained by the DOD inventory control points and retail storage activities.
The audit was limited because DOD management had not developed and executed a
DBOF-wide sample; we developed a sample to test inventory record accuracy. The
time and resources required to develop and execute the sample prohibited us from
testing other aspects of inventory needed to fully audit Inventory, Net. The other
aspects included consigned and in-use inventory ($4.7 billion); inventory in-transit
($9.6 billion); adjustments, such as inventory revaluation to latest acquisition cost
($21.7 billion); and the allowance for inventory holding gains and losses
($21.1 billion). We also evaluated the adequacy of the DOD and Defense Logistics
Agency management control programs as they related to the audit objectives.

Audit Results. The inventory records of the Defense Business Operations Fund were
not accurate. An estimated 15.8 percent, or about one of every six inventory records
represented by our sampling, was in error. The errors caused inventory records to be
misstated (overstated and understated) by an estimated $3.9 billion. The net
misstatement resulting from those errors was an estimated $336.3 million
understatement of the $89 billion of on-hand inventory used to prepare the FY 1996
Defense Business Operations Fund financial statements. That net amount of error made
the value of the sampled portion of Defense Business Operations Fund inventory on the
financial statements appear accurate because the overstated amounts offset most of the
understated amounts. However, the 15.8 percent error rate represented a material
management control weakness. The inaccurate records greatly limited the reliability of
the financial data. Inaccurate inventory records also distorted the reports used by
inventory managers who made decisions to buy materiel. Additionally, the inaccurate
records can reduce the effectiveness of logistics support when military customers
urgently need inventory (Finding A).

DOD inventory control points and retail storage activities did not implement a plan to
conduct an annual statistical sample of the FY 1996 Defense Business Operations Fund
inventory, as required by DOD policy. As a result, the Under Secretary of Defense
(Comptroller) did not have a sound basis for his assertions that inventory reported in
the Defense Business Operations Fund financial statements was accurate and complete
(Finding B). See Appendix A for details of the management control program.

Summary of Recommendations. We recommend that the Director, Defense Logistics
Agency, expedite actions to correct the automated location reconciliation program to
provide periodic reconciliation of the Defense Logistics Agency inventory control
points’ inventory records with the records maintained by Defense Logistics Agency
distribution depots, Military Department depots, and other storage sites. The actions
should include establishing a schedule for implementing the reconciliation program and
evaluating the causes of significant discrepancies found during the reconciliations. In
addition, we recommend that the Deputy Under Secretary of Defense (Logistics), in
coordination with the Under Secretary of Defense (Comptroller), establish the
framework for the annual statistical samples of wholesale and retail inventory records,
assign a central management official to oversee the development of the samples, and
direct the Military Departments and the Defense Logistics Agency to perform the
samples.

Management Comments. The Acting Deputy Under Secretary of Defense (Logistics)
listed actions that will be taken to establish the framework for the annual statistical
samples and proposed an alternative method for sampling to assess the accuracy of the
wholesale and retail inventory records. Each Military Department and the Defense
Logistics Agency will be responsible for establishing the methodology and developing
samples to assess the accuracy of inventory records. The Deputy Director, Defense
Logistics Agency, identified actions taken to correct and implement the automated
location reconciliation program and to implement a program for researching and
evaluating discrepancies identified during the reconciliation. See Part I for a discussion
of management comments and Part III for the complete text of management comments.

Audit Response. The actions proposed by the Acting Deputy Under Secretary of
Defense (Logistics) satisfy the intent of the recommendation. However, the Acting
Deputy Under Secretary of Defense (Logistics) did not give completion dates for
conducting annual statistical samples of inventory records. We request that the Acting
Deputy Under Secretary of Defense (Logistics) provide comments on the final report
by April 13, 1998, and include completion dates. Comments from the Defense
Logistics Agency were responsive; therefore, additional comments are not required.




                                            ii
Table of Contents

Executive Summary                                                      i

Part I - Audit Results
      Audit Background                                                 2
      Audit Objectives                                                 2
      Finding A. Inventory Record Accuracy                             4
      Finding B. Annual Statistical Sample                            10

Part II - Additional Information
      Appendix A. Audit Process
        Scope                                                         18
        Methodology                                                   18
        Statistical Sampling Methodology                              19
        Management Control Program                                    23
      Appendix B. Summary of Prior Coverage                           24
      Appendix C. Accuracy of On-Hand and Stock Records               30
      Appendix D. Report Distribution                                 31


Part III - Management Comments

      Acting Deputy Under Secretary of Defense (Logistics) Comments   34
      Defense Logistics Agency Comments                               35
Part I - Audit Results
Audit Background

    The Defense Business Operations Fund (DBOF), a revolving fund, was
    established by the Secretary of Defense on October 1, 1991. The purpose of
    DBOF was to standardize, consolidate, and improve systems and operations and
    to reduce the costs of providing support services to DOD organizations. In
    December 1996, the Under Secretary of Defense (Comptroller) announced that
    the DBOF would be realigned into separate Working Capital Funds. The
    realignment does not affect the matters discussed in this report, because the
    Working Capital Funds will have inventory and because accountability over
    inventory will continue to require management attention” However, beginning
    in FY 1997, separate financial statement audit opinions will be issued for each
    Working Capital Fund.

    At the time DBOF was established, the Supply Management Business Area of
    each Military Department and DLA was established as a separate business area
    for inventory management. DBOF on-hand inventory consists of consumable
    and repairable materiel. The Supply Management Business Area provides for
    procuring, storing, and selling the DBOF inventory to DOD Components and
    other Government agencies. Inventory is the most significant category of assets
    in the DBOF financial statements. At the end of FY 1996, DBOF Inventory,
    Net totaled $57.1 billion, or about 64 percent of the total DBOF assets.

    Public Law 101-576, the “Chief Financial Officers Act of 1990” (the CFO
    Act), November 15, 1990, as amended by Public Law 103-356, the “Federal
    Financial Management Act of 1994, ” October 13, 1994, requires DOD to
    prepare, on an annual basis, audited financial statements for the preceding year
    and submit them to the Director, Office of Management and Budget. The
    financial statements report the financial position and results of operations of the
    DOD Components and business activities.



Audit Objectives

    The audit objective was to determine whether inventory amounts on the
    FY 1996 DBOF Consolidated Financial Statements were presented fairly in
    accordance with the other comprehensive basis of accounting described in
    Office of Management and Budget Bulletin No. 94-01, “Form and Content of
    Agency Financial Statements, ” November 16, 1993. We limited the audit to
    evaluating the accuracy of the perpetual inventory records for on-hand inventory
    maintained by the DOD Inventory Control Points and Retail Storage Activities.
                                         2
The audit was limited because DOD management had not developed and
executed a DBOF-wide sample; we developed a sample to test inventory record
accuracy. The time and resources required to develop and execute the sample
prohibited us from testing other aspects of inventory needed to fully audit
Inventory, Net. The other aspects included consigned and in-use inventory
($4.7 billion); inventory in-transit ($9.6 billion); adjustments, such as inventory
revaluation to latest acquisition cost ($21.7 billion); and the allowance for
inventory holding gains and losses ($21.1 billion). See Appendix A for a
discussion of the audit process and the review of the management control
program.




                                     3
           Finding A. Inventory Record Accuracy
           DBOF inventory records were not accurate. An estimated 15.8 percent,
           or about one of every six DBOF inventory records represented by our
           sampling, was in error (see Appendix A for confidence level and
           precision of estimates). The errors caused DBOF inventory records to
           be misstated (overstated and understated) by an estimated $3.9 billion.
           The net amount of those errors was an estimated $336.3 million
           understatement of the $89 billion of on-hand inventory used to prepare
           the FY 1996 DBOF financial statements. That net amount of error made
           the value of the sampled portion of DBOF inventory on the financial
           statements appear accurate because the overstated amounts offset most of
           the understated amounts. However, the 15.8 percent error rate
           represented a material management control weakness.

           The inaccurate perpetual inventory records existed because inventory
           records maintained by the DLA distribution depots and Military
           Department depots were not reconciled with the inventory records
           maintained by the DLA inventory control points (ICPs), and because
           various errors occurred in processing inventory transactions. The
           inaccurate records greatly limited the reliability of the financial data.
           Inaccurate inventory records also distorted the reports used by inventory
           managers who were making decisions to buy materials. The inaccurate
           records can reduce the effectiveness of logistics support when military
           customers urgently need inventory a



Inventory Record Management

    The Military Departments and DLA used perpetual inventory systems to manage
    wholesale inventories (at DLA distribution depots and Military Department
    depots) and retail inventories (at military bases). The inventory systems
    maintained a continuous record of inventory, increasing the on-hand balance
    when stock was received, decreasing the balance when stock was issued, and
    adjusting the balance based on the results of physical inventories.

    The perpetual inventory systems accounted for inventory on an item-by-item
    basis; each item had a unique National Stock Number (NSN). The perpetual
    inventory records were used to update the financial inventory accounts in the
    DBOF general ledger as of September 30, 1996.

    The logistics records for inventory were used to establish the financial value of
    on-hand inventory as of September 30, 1996. At that time, on-hand inventory

                                         4
                                             Finding A. Inventory Record Accuracy




    in the Military Departments and DLA totaled $89 billion. The majority
    (approximately 75 percent of the value) of that inventory was stored at 23 DLA
    distribution depots. The remainder was stored at Military Department depots
    and retail storage activities worldwide.

    In the FY 1996 DBOF financial statements, the value of on-hand inventory was
    adjusted to the latest acquisition cost, the latest acquisition price net of repair
    cost, or the net realizable value, depending on the condition of the materiel.

    In the FY 1996 DBOF Consolidated Financial Statements, the Military
    Departments and DLA reported DBOF-owned inventory with a latest acquisition
    cost of $57.1 billion after adjustment.



Evaluation of Inventory Record Accuracy

    We used a multistage stratified statistical sample to assess the overall accuracy
    of the DBOF perpetual inventory records. As part of the audit tests, we
    observed the physical inventory process for 2,878 NSNs at 16 DLA distribution
    depots, 2 Military Department depots, and 13 retail storage activities. The
    31 activities stored about $62.2 billion of the $89 billion.

    The results showed that the perpetual inventory records were inaccurate for an
    estimated 15.8 percent of the NSNs represented by our sampling. The errors
    caused DBOF inventory records to be misstated (overstated and understated) by
    an estimated $3.9 billion.

    Effect on Accuracy of Financial Statements. The net amount of those errors
    was an estimated $336.3 million understatement of the $89 billion of inventory
    used to prepare the FY 1996 DBOF Financial Statements. That net amount of
    error made the value of DBOF inventory on the financial statements appear
    accurate because the overstated amounts offset most of the understated amounts.
    The net estimated value was within 1 percent of the dollar value for DBOF
    inventory reported on the financial statements. However, offsetting the
    overages and underages provides a false sense that the inventory is accurate.
    Although the net value reported on the statements is within an acceptable range,
    the $3.9 billion of misstatements and 15.8 percent error rate are unacceptable
    and require management attention. A commercial vendor with $3.9 billion in
    errors in inventory would be seriously concerned and would initiate corrective
    action. Further, as DOD reduces inventory on hand due to streamlining
    initiatives, errors in inventory records become more critical to ensuring supply
    availability to the military.
Finding A. Inventory Record Accuracy




Reasons for Inaccurate Inventory

      The inaccurate inventory records occurred because the storage activities’
      inventory records were not reconciled with the inventory records maintained by
      the DLA ICPs. Inaccurate inventory records also occurred as a result of errors
      in processing inventory transactions.

      Reconciling Inventory Records. Inventory records were inaccurate because
      the records maintained by the DLA distribution depots and Military Department
      depots were not reconciled with the inventory records maintained by the DLA
      ICPs. The inventory records were not accurate before or after the physical
      inventories were performed. As a result, the DLA ICPs used erroneous
      inventory records to accumulate the value of inventory for the financial
      statements.

      The DLA had inventory valued at about $8.5 billion stored at the 23 DLA
      distribution depots and $357 million stored at Military Department depots and
      other storage sites. We estimate that $1 o 1 billion of the $3.9 billion
      misstatement of on-hand inventory was caused by not reconciling the records.

      Procedures for Reconciling Inventory Records. DOD recognized the problems
      involved in maintaining separate inventory records at the depots and ICPs.
      DOD 4000.25-2-M) “Military Standard Reporting and Accounting Procedures, ”
      May 1987, requires each DOD Component to implement a location audit
      program that includes procedures for location reconciliation. Location
      reconciliation requires matching the storage activities’ records and the ICP
      records in order to identify and correct quantity discrepancies and data. The
      regulation also requires that discrepancies between the Storage Activity and ICP
      records be researched and special inventories be conducted when corrective
      action is needed.

      Evaluation of Reconciliation Program. Although implementing the location
      reconciliation program is critical to the accuracy of the DLA inventory records,
      DLA did not have an effective reconciliation program. DLA was implementing
      the Distribution Standard System at the DLA distribution depots to replace
      existing legacy systems. DLA included the capability to reconcile the
      distribution depots and ICP inventory records in the Distribution Standard
      System. The Distribution Standard System implementation plan provided for
      installing the system at former Army depots during FY 1996 and to complete
      implementation at all depots during FY 1997. However, at the time of the
      audit, the implementation schedule had been delayed, and complete
      implementation was not expected until FY 1998. In November 1995, DLA
      began limited quarterly reconciliations between the DLA distribution depots that
      had implemented the Distribution Standard System and the DLA ICPs.
      However, in April 1996, DLA suspended the location reconciliation program

                                         6
                                        Finding A. Inventory Record Accuracy




because of deficiencies in the automated reconciliation program between the
Distribution Standard System and the Standard Automated Material
Management System. The deficiencies distorted the ICPs’ operating results.
Errors in Processing Inventory Transactions. Inventory records were also
inaccurate because inventory transactions were not processed or were processed
incorrectly. We attributed the remaining misstatement of on-hand inventory, an
estimated $2.8 billion of the $3.9 billion of errors in the inventory records, to
various errors in processing inventory transactions. In separate audit reports,
the IG, DOD, and the Military Department audit organizations reported that the
inaccurate perpetual inventory records at DLA distribution depots and retail
storage activities occurred as a result of various errors in processing inventory
transactions. Specific processing problems included:

       o unposted receipts,

       o erroneous gains or losses processed,

       o incomplete disposal actions,

       o unrecorded rewarehousing actions,

       o data entry errors,

       o duplicate document postings,

       o erroneous reversals of inventory adjustments, and

       0 incorrect unit of issue.

See Appendix B for a summary of the FY 1996 reports issued by the Inspector
General (IG), DOD, and the Military Department audit organizations.

To eliminate repetitive errors in inventory transaction errors, DOD 4000.25-2-M
requires causative research to identify, analyze, and evaluate the cause of
inventory discrepancies.

The prior audit, “Inventory Record Accuracy and Management Controls at the
Defense Logistics Agency Distribution Depots, ” Report No. 98-O 19,
November 10, 1997, concludes that the research effectively determined the
correct inventory record balance. However, the distribution depots did not
identify the underlying causes for the inaccurate inventory records. The report
concludes that although causative research has been repeatedly reported in prior
audits over the last 15 years, ineffective research procedures still exist. The
report recommended that the Director, DLA, revise the depots’ causative
research procedures to use

                                    7
Finding A. Inventory Record Accuracy




      computer-assisted techniques and analysis to focus research efforts on depots
      and commodities with large variances. Therefore, we are making no additional
      recommendations to address inventory transaction processing.



Summary

      The quarterly reconciliation between the DLA distribution depots and the DLA
      ICPs is crucial to maintaining accurate inventory records, and DLA needs to
      devote the resources needed to correct the deficiencies in the automated
      reconciliation program. Expeditious actions are necessary to maintain effective
      logistics support and provide accurate financial data.



Management Comments on the Finding
and Audit Response

      Management Comments. The Deputy Director, DLA, partially concurred
      with the finding. He stated that the finding reported that the inaccurate records
      greatly limited the reliability of the financial data, but also that the value
      reported on the statements is within an acceptable range. The Deputy Director
      stated that using a method in which any deviation between the bin quantity and
      the record quantity is an error (zero tolerance) fails to consider the magnitude of
      the error. While DBOF inventory records were only 84.2 percent accurate, the
      magnitude of those errors was within an acceptable range, since the dollar
      accuracy of inventory records was 95.7 percent. The logistics community has
      moderated its requirements by allowing acceptable tolerances to account for the
      impact of errors on readiness and financial management. Although 100 percent
      accuracy is ideal, some items do not warrant the expenditures necessary to
      achieve and maintain record accuracy at 100 percent.

      Audit Response. We can only partially agree with the Deputy Director
      comments. The audit community does not require 100 percent record accuracy.
      However, to measure the reasonableness of the reported inventory value, we
      must measure the total record inaccuracies at the NSN level. Zero tolerance at
      the NSN level is necessary to have a meaningful and consistent measure for
      financial audits, and is not the same as zero tolerance for the entire inventory.
      As stated earlier, we reported a net misstatement of $336.3 million (with a
      range of negative $417.3 million to $1,090 million) I Although the net
      misstatement was within an acceptable range, this occurred largely because
      some errors in the Military Departments and DLA canceled out other errors.

                                           8
                                           Finding A. Inventory Record Accuracy




    The realignment of DBOF as separate Working Capital Funds will either
    positively or negatively effect this apparent accuracy. We also reported that the
    gross misstatement of $3.9 billion (with a range of $2.8 to $4.9 billion) limited
    the reliability of the financial data. The gross dollar misstatement of about
    4.3 percent indicated that material management control deficiencies existed.
    Although the 4.3 percent dollar value of error may be acceptable to the logistics
    community, the $2.8 billion to $4.9 billion of errors is not acceptable for
    financial reporting.



Recommendations, Management Comments,
and Audit Response

    A. We recommend that the Director, Defense Logistics Agency:

           1. Expedite actions to correct the automated location reconciliation
    program to provide periodic reconciliations of the inventory records
    maintained by the Defense Logistics Agency inventory control points with
    the records maintained by Defense Logistics Agency distribution depots,
    Military Department depots, and other storage locations.

    Management Comments. The Deputy Director indicated that all required
    changes have been made and the location reconciliation process has been in
    operation since July 1997 at the DLA ICPs and distribution depots that use the
    Distribution Standard System. As the Distribution Standard System is
    implemented in the former Military Department depots, location reconciliations
    will be scheduled as early as possible. The Distribution Standard System can
    reconcile the depots’ records with Military Department ICP systems that can
    process the location reconciliation transactions.

           2. Establish a schedule for implementing the location reconciliations
    and for evaluating the causes of significant discrepancies found during the
    reconciliations.

    Management Comments. The Deputy Director provided a schedule for
    reconciling DLA ICP and distribution depot records and stated that procedures
    for researching and evaluating discrepancies have been provided to the ICPs.
    The schedule and procedural guidance will be published in the next revision of
    Defense Logistics Agency Manual 4140.2, Volume II.
            Finding B. Annual Statistical Sample
            ICPs and retail supply activities did not implement a plan to conduct an
            annual statistical sample of the FY 1996 DBOF inventory, as required by
            DOD 4140. l-R, the “DOD Material Management Regulation,” January
            1993. This condition existed because the Deputy Under Secretary of
            Defense (Logistics) and the Under Secretary of Defense (Comptroller)
            did not cooperatively develop a framework for the annual statistical
            sample. Also, the Deputy Under Secretary of Defense (Logistics):

                   o did not require compliance with its regulation,

                   o did not appoint a central management official for developing
            and conducting the annual statistical sample of inventory, and

                    o had not required that information be compiled to form the
            basis for sample selection and inventory testing.

            As a result, the Under Secretary of Defense (Comptroller) did not have a
            sound basis for his assertions that inventory reported in the DBOF
            financial statements was accurate and complete.



Inventory Policy

     DOD 4140.1-R makes the ICPs and retail supply activities responsible for taking
     physical inventories and ensuring that the quantities on hand agree with
     perpetual inventory records.

     DOD 4140.1-R also directs ICPs and retail supply activities to perform an
     annual statistical sample of the perpetual inventory records. The annual
     statistical sample has the highest priority for scheduling inventories. The
     purpose of the sample is to provide DOD management with an assessment of the
     accuracy and completeness of the perpetual inventory records supporting
     management’ s assertions about inventory on the financial statements ~

     DOD 4000.25-2-M, as amended by the “Approved Military Standard
     Transaction Reporting and Accounting Procedures Change Letter Number SA, ”
     August 9, 1996, provides guidance for separately assessing the accuracy of
     inventory records for the wholesale logistics community.

     DOD 4000.25-2-M recognizes the nature of inventory inaccuracies and the cost
     of conducting inventories. It requires that physical inventories be more

                                        10
                                               Finding B. Annual Statistical Sample




    selective than loo-percent, wall-to-wall, total item counts. Accordingly, the
    distribution depots are required to take statistical samples to assess the overall
    accuracy of their inventory records.

    DOD 4000.25-2-M authorizes the ICPs to take statistical samples to assess the
    overall accuracy of their inventory records. It also provides guidance for DOD
    Components to report the overall results of their scheduled and unscheduled
    inventory programs in their Inventory Control Effectiveness Reports. However,
    those reports are not based on the sample inventories discussed above, and may
    not indicate the overall condition of the inventory records.



Evaluation of the Inventory Program

    In his report to Congress, “Security and Control of Supplies for FY 1994, ” the
    Deputy Under Secretary of Defense (Logistics) reported that working
    cooperatively, the IG, DOD; the Office of the Secretary of Defense; the Military
    Department audit organizations; and the DLA Operations Research Office used
    a multistage stratified statistical sampling technique to meet the requirements of
    the CFO Act for validating DBOF inventory and the logistics community’s
    needs for assessing the accuracy of inventory records. The report stated that in
    FY 1995, the DOD would expand the sampling plan to capture more fully the
    characteristics of the population necessary to evaluate the accuracy of logistics
    records. However, little progress has been made in developing and
    implementing a valid sampling program since that time.

    The Deputy Under Secretary of Defense (Logistics) had not developed a plan
    for performing the annual statistical sample of the DBOF inventory in FY 1996.
    No action had been taken to accumulate universe data for developing an
    inventory sample, and no action officer had been placed in charge of such a
    sample. In addition, the DLA distribution depots did not take comprehensive
    statistical samples to assess the accuracy of logistics records during FY 1996.

    To demonstrate that an overall sample of DBOF inventory could be taken, and
    in the absence of action at the Deputy Under Secretary of Defense (Logistics)
    level, we developed a sampling plan and conducted the sample. Using
    resources from the IG, DOD; the Army, Navy, and Air Force audit
    organizations; the DLA Operations Research Office; and the retail inventory
    storage activities, we gathered universe data, developed a sampling plan,
    developed a timetable for completing the sample, and executed the sampling
    plan by the end of FY 1996.




                                         11
Finding B. Annual Statistical Sample




Status of the Annual Statistical Sample

      Since the CFO Act’s requirements for inventory dollar accuracy have been in
      place, the DOD financial and logistics communities have been unsure about
      designing and implementing a proper, valid, and adequately precise statistical
      sampling plan. As a result, the financial and logistics communities, including
      the DLA, have not developed the framework for a sampling plan to satisfy the
      CFO Act’s requirements for assessing the accuracy of inventory records from
      the perspective of inventory value.

      To satisfy the requirements of both the financial and logistics communities,
      DOD needs a statistically designed sample with known probabilities of selection
      that emphasizes both dollar value and quantitative accuracy using a stratified
      sampling technique. The annual statistical sample can be designed to meet that
      need. In addition, the annual statistical sample can provide the logistics
      community with a quantitative performance measure and can more accurately
      assess the accuracy of the inventory records.

      In a previous cooperative effort by the Office of the Deputy Under Secretary of
      Defense (Logistics), the Defense Logistics Management Standards Office, and
      the IG, DOD, Quantitative Methods Division, an adequate sample had been
      conceived and partially developed. This cooperative effort proposed performing
      a single sample to evaluate DBOF inventory record accuracy from the
      perspective of inventory value. The DLA Operations Research Office had
      accumulated records from the Military Department depots and DLA distribution
      depots to select a sample of wholesale inventory. However, the effort stalled
      primarily because the logistics community had difficulty identifying and
      accumulating a universe of the total DBOF inventory population, including
      retail inventories, and because the audit community did not take comprehensive
      samples of DBOF inventory in FY 1995.



CFO Sample Requirements

      DOD wholesale inventories are managed by the 16 ICPs and stored primarily at
      the DLA distribution depots and Military Department depots. DOD established
      centralized guidance for the management of DOD wholesale inventory in
      DOD 4140.1-R and DOD 4000.25-2-M.

      Consolidating the management of the wholesale distribution depots in DLA
      should permit the use of standardized inventory control procedures that
      minimize the obstacles to scheduling and implementing an annual statistical
      sample of wholesale inventory.
                                         12
                                               Finding B. Annual Statistical Sample




     DOD retail inventories are stored at over 500 military installations worldwide.
     The Military Departments developed inventory systems and inventory control
     programs to manage their retail inventories. DOD 4140.1-R directs that
     procedures for management of inventories below the wholesale level (retail
     inventory) shall be patterned after wholesale procedures as much as possible.



Statistical Sample Developed for Audit

     The multistage stratified sampling structure used for this audit was designed
     specifically to meet the requirements of the CFO Act. However, it can also be
     adapted to test inventory accuracy. The efficiency of the sampling design was
     improved by incorporating information learned while conducting a previous
     sample. Feedback and revision are integral parts of a long-term sampling plan
     Without them, neither the efficiency nor the continuing relevance of the
     sampling results is assured.

     As part of our sampling design, we observed physical inventories throughout the
     year. In addition, we performed repeated sampling at different times for
     specified locations. Statistical tests showed no significant differences in overall
     net results between the first and successive sampling at the specified locations
     (see Appendix A for details). These findings support the use of sample data
     collected throughout the year for year-end conclusions on the financial
     statements for the inventory line item. However, the data contain some
     indicators of differences over time at individual sites. More testing is needed to
     determine when repeated sampling is appropriate for purposes other than
     meeting the requirements of the CFO Act.



Conclusion

     Although the Deputy Under Secretary of Defense (Logistics) reported to
     Congress that a valid sample and test of the DBOF inventory would be
     completed, management has not taken the necessary steps. The Deputy Under
     Secretary of Defense (Logistics) and Under Secretary of Defense (Comptroller)
     need to define the requirements for sampling plans to meet the requirements of
     the CFO Act.

     In December 1996, the Under Secretary of Defense (Comptroller) announced
     that the DBOF would be realigned into separate Working Capital Funds. This
     decision significantly changes the requirements for the annual statistical sample
     and will affect the development and implementation of the sample. To satisfy
                                         13
Finding B. Annual Statistical Sample




      the requirements of the CFO Act, the sampling plan must be designed to
      support separate audit opinions for each of the separate Working Capital Funds.
      This will require a significantly larger sample than the sample we developed for
      FY 1996. In addition, the sampling plan must be designed to evaluate the
      accuracy of both the wholesale and retail inventory segments. This will require
      a more complex sample design and may also increase sample sizes.

      Separate samples of inventory stored at the DLA distribution depots and
      inventory stored at Military Department depots and retail storage activities
      would be the most efficient and effective means of meeting the CFO Act
      requirements. The DLA distribution depots are a unified organization for which
      a single sampling plan can meet both CFO Act and logistics requirements.
      Accordingly, we believe that the Deputy Under Secretary of Defense (Logistics)
      should oversee the design of a sampling plan for the DLA distribution depots.
      The Military Department depots and retail storage activities are managed by the
      Military Departments and are located worldwide. To effectively control the
      execution of the retail inventory sample, we believe that the Deputy Under
      Secretary of Defense (Logistics), in coordination with the Under Secretary of
      Defense (Comptroller), should centrally manage the design and implementation
      of the sampling plans.

      Based on our sample results, we believe that separate sampling plans should be
      developed for the distribution depot and retail segments of inventory. The error
      rates for DLA distribution depots were substantially higher than the error rates
      for Military Department depots and retail storage activities. Based on the
      statistical sample discussed in Appendix A, we estimated error rates of
      20.1 percent for DLA distribution depots and 10.5 percent for Military
      Department depots and retail storage activities. We attributed the more accurate
      inventory records at Military Department depots and retail storage activities to
      smaller quantities of inventory and faster turnover. In addition, the smaller size
      of the retail inventory operation allowed the retail storage activities to perform
      wall-to-wall inventories and more frequent location reconciliations. Separate
      samples of materiel stored in DLA distribution depots and materiel stored by
      Military Department depots and retail storage activities would allow
      management to effectively track improvements in inventory management and
      controls over the wholesale and retail inventory segments.

      The success of our sampling plan demonstrated that such samples are
      achievable, provide a basis for assessing the overall accuracy of DOD
      inventories, and should be used on an ongoing basis by DOD. The IG, DOD,
      Quantitative Methods Division can assist in designing the appropriate sampling
      plans. The results of the sample are included in Appendix A.




                                          14
                                             Finding B. Annual Statistical Sample




Recommendations, Management Comments,
and Audit Response

    B. We recommend that the Deputy Under Secretary of Defense (Logistics),
    in coordination with the Under Secretary of Defense (Comptroller):

           1. Establish the framework for the annual statistical samples of
    wholesale and retail inventory records.

           2. Assign a central management official to oversee the development
    of the samples.

          3. Direct the Military Departments and the Defense Logistics
    Agency to perform the sample.

    Management Comments. The Acting Deputy Under Secretary of Defense
    (Logistics) generally concurred with Recommendations B. 1. and B.3. and
    identified corrective actions that would be taken. He nonconcurred with
    Recommendation B.2.) stating that each Military Department and DLA will be
    responsible for establishing the sampling methodology and developing samples
    to assess the accuracy of wholesale and retail inventory records.

    Audit Response. The proposed alternative action for Recommendation B.2. is
    acceptable. The Acting Deputy Under Secretary of Defense (Logistics) did not
    give completion dates for implementing the corrective actions. Therefore, we
    request that completion dates for implementing corrective actions be provided in
    response to the final report.




                                       15
Part II - Additional Information
Appendix A. Audit Process


Scope

    The overall objective of the DBOF inventory audit was to determine whether
    Inventory, Net, reported at $57.1 billion on the FY 1996 DBOF Consolidated
    Financial Statements, was presented fairly in accordance with the other
    comprehensive basis of accounting described in the Office of Management and
    Budget Bulletin No. 94-01, “Form and Content of Agency Financial
    Statements,” November 16, 1993.

    We limited the audit to evaluating the accuracy of the perpetual inventory
    records for on-hand inventory maintained by the DOD ICPs and retail storage
    activities. The audit was limited because the sample for DBOF inventory record
    accuracy, which we conducted because DOD management had not executed such
    a plan (see Finding B), prohibited us from testing consigned and in-use
    inventory ($4 ~ 7 billion) ; in-transit inventory ($9.6 billion) ; adjustments, such as
    inventory revaluation to latest acquisition cost ($21.7 billion); the allowance for
    inventory holding gains and losses ($21.2 billion); and other aspects of
    inventory that are required to fully audit the inventory amounts reported in the
    DBOF financial statements. The DBOF perpetual inventory records provided
    information on the quantity of each item in DBOF inventory that the Military
    Departments and DLA used to extrapolate the value of on-hand inventory.



Methodology

    Use of Computer-Processed Data. To achieve the audit objective, we relied on
    computer-processed data in the inventory records of the Military Department
    and DLA ICPs. Our audit tests included statistical sampling of the inventory
    records to assess their accuracy and judgmental sampling of the storage
    activity’s location records to assess their completeness (see Appendix C). The
    results of the audit tests showed an estimated error rate of 15.8 percent. We
    concluded that the data were inaccurate. Although the overstatements and
    understatements were essentially offsetting, the inaccurate records limited the
    reliability of the data reported in the DBOF financial statements.

    Audit Universe. The Military Departments and DLA maintained automated
    logistical inventory records. Those inventory records were reconciled with the

                                          18
                                                        Appendix A. Audit Process




    activities’ financial inventory accounting records at the end of the fiscal year.
    The financial inventory accounting records were then extrapolated to establish
    the value of on-hand inventory reported in the trial balances for DBOF. We
    obtained DBOF trial balance information as of approximately the end of
    FY 1994 to establish the sampling frame and select 31 primary sampling units
    (discussed below). The data showed that the 546 DBOF activities had on-hand
    inventory totaling $92.8 billion, valued at standard price. Similarly, we
    obtained DBOF trial balance information as of September 30, 1996, which
    showed on-hand inventory valued at $89 billion.

    For the 31 primary sample units, we obtained logistical inventory records
    between June and September 1995. The ICPs and retail supply activities
    extracted information from the logistical inventory records and provided us with
    computer tapes identifying inventory balances and values. We used the
    logistical inventory records to select secondary sampling units (NSNs at specific
    locations) for review, as discussed below. The data showed that the 3 1 primary
    sampling units (storage activities) held inventory valued at $62.2 billion.

    Use of Technical Assistance. The IG, DOD, Quantitative Methods Division
    assisted in designing and evaluating of the statistical sampling plan.

    Audit Type, Dates, and Standards. We performed this financial-related audit
    of perpetual inventory records during the period July 1995 through
    September 1997 in accordance with auditing standards issued by the
    Comptroller General of the United States, as implemented by the IG, DOD, and
    Office of Management and Budget Bulletin No. 93-06, “Audit Requirements for
    Federal Financial Statements, ” January 8, 1993. Those standards require that
    we plan and perform the audit to obtain reasonable assurance that the financial
    information presented in the consolidated statements is free of material
    misstatements.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DOD. Further details are available on request.



Statistical Sampling Methodology

    Purposes of Sampling. The purposes of the statistical sample in this CFO audit
    were to provide quantitative evidence for two audit determinations:

           o the accuracy of the inventory value reported in the DBOF trial
    balances for FY 1996, and

            o the adequacy of internal controls over the inventory during FY 1996.

                                        19
Appendix A. Audit Process




      To determine the accuracy of the inventory value, we estimated statistically the
      total net dollar misstatement of the inventory trial balance. To assess the
      adequacy of internal controls, we estimated statistically the overall rate of
      misstatement and the total gross dollar misstatement of this balance. We also
      estimated statistically the separate misstatement rates for the trial balances of
      two subpopulations: the DLA distribution depots, and all other sites including
      both Military Department depots and retail storage activities. Finally, we
      estimated statistically the total gross dollar misstatement due to not reconciling
      inventory records of the depots with records of the DLA ICPs. Our sample also
      included repeated counts of the same NSNs at different times for specified
      locations. This repeated sampling allowed us to test the validity of using
      inventory data collected throughout the year to support year-end conclusions.

      Sampling Frame. The original frame for our statistical sampling included
      546 locations with a total reported on-hand inventory trial balance valued at
      $92.8 billion as of September 1994. The 23 DLA Distribution Depots had a
      reported inventory trial balance of $68.1 billion. The remaining locations, with
      a reported trial balance of $24.7 billion, were Military Department depots and
      retail storage activities. As of September 30, 1996, the trial balance was
      $89 billion. Subsequently, we eliminated 10 locations from the frame for the
      following reasons: for 5 locations, inventory was being eliminated as a result of
      DOD downsizing; for 3 locations, inventory stored at many locations was of
      inconsequential value; for 1 location, the inventory was not in condition for
      audit; and for 1 location, a dry-docked ship, the supply department was not
      operating at the time of audit. After these adjustments, the final frame for our
      sampling included 536 locations with a total reported trial balance of
      $89.3 billion for on-hand inventory.

      Sampling Design. We used a two-stage sampling design for this audit. At the
      first stage of sampling, we defined primary sampling units as DLA distribution
      depots, Military Department depots, and retail storage activities. We selected
      69 of these primary sampling units using probability proportional to size weights
      with replacement sampling. The measure of size was the reported dollar value
      of inventory at the primary sampling units based on the September 1994 trial
      balance. Because the with-replacement sampling methodology allows a primary
      sampling unit to be selected more than once, our 69 samples encompassed only
      3 1 unique locations.

      At the second stage of our sampling, we defined secondary sampling units as all
      NSNs specific to a primary sampling unit location. For each unique primary
      sampling unit location selected in our first stage of sampling, we designed a
      stratified sample of secondary sampling units. These stratifications encompass
      both quantitative and qualitative dimensions in order to ensure the stability of
      individual primary sampling unit results. In all, we observed 2,878 physical
      inventories of location-specific NSNs in our sample.


                                          20
                                                         Appendix A. Audit Process




Sample Results

    We derived the following statistical estimates of dollar value misstatements from
    our sample data:

                                                  90-Percent Confidence Intervals
                                                             Point
                                              Lower         Estimate         Upper
                                              Bound        (millions)        Bound
    Total net misstatement*                  $ (417.3)      $ 336.3          $1,090.0
    Total gross misstatement                 $2,794.5       $3857.9          $4,921.3
    Total gross misstatement                 $ 382.3        $1,086.1         $1,790.0
      caused by not reconciling
      depot and DLA ICP records

    *Positive net misstatements are understatements; negatives are overstatements.

    We are 90-percent confident that the total net dollar misstatement of the NSNs
    at the locations in our sampling frame is from $417.3 million overstated to
    $1,090 million understated. Also, we are 90-percent confident that the total
    gross dollar misstatement of the NSNs at the locations in our sampling frame is
    from $2,794.5 million to $4,921.3 million. Of the total gross dollar
    misstatement, we are 90-percent confident that from $382.3 million to
    $1,790 million is due to not reconciling depot and DLA ICP inventory records.
    The point estimates of these dollar value misstatements are the statistically best
    unbiased single-value estimators of the true dollar misstatements for their
    respective definitions.




                                        21
Appendix A. Audit Process




      We also generated the following statistical estimates of misstatement percentage
      from our sample data:

                                                     90-Percent Confidence Intervals
                                                   Lower          Point          Upper
                                                   Bound         Estimate        Bound
                                                   Percent       Percent         Percent
      Overall misstatement percentage                 12.0         15.8            19.5

      Misstatement percentage at
        DLA distribution depots                       14.1        20.1            26.1
      Misstatement percentage at
        Military Department depots
        and retail storage activities                  6.8         10.5            14.3

      We are 90 percent confident that from 12 to 19.5 percent of the NSNs at the
      locations in our sampling frame are misstated. For the DLA distribution depots
      in our frame, we are 90 percent confident that from 14.1 to 26.1 percent of the
      NSNs are misstated. For the Military Department depots and retail storage
      activities in our sampling frame, we are 90 percent confident that from 6.8 to
      14.3 percent of the NSNs at the locations in our sampling frame are misstated.
      These point estimates of misstatement percentage are the statistically best
      unbiased single-value estimators of the true misstatement percentage for the
      respective inventory segments.

      Our use of with replacement sampling of primary sampling unit locations not
      only substantially improved the precision of our statistical estimates, but also
      allowed us to observe repeated inventories of a subset of location-specific NSNs
      at different times during the year. With these repeated measures, we were able
      to assess the validity of using inventory observations collected throughout the
      year in support of audit conclusions concerning year-end financial statement
      values. We performed statistical tests of the differences in both counts and net
      dollars from the preceding to the succeeding samples for this subset of NSNs.
      Neither the count difference nor the net dollar difference is significantly
      different from zero at the 90-percent confidence level for the locations where we
      made repeated observations. This result supports the use of inventory data
      collected during the year to support DOD-wide year-end audit conclusions.
      However, there are indications within the repeated observations that cycles or
      trends may exist at specific locations. These effects appear to cancel out at the
      aggregate (DOD-wide) level, but could lead to distortions in location-specific or
      Military Department-specific statistical estimates. More research is needed to
      validate the use of inventory data collected over time in support of estimates for
      particular locations or Military Departments.


                                          22
                                                       Appendix A. Audit Process




Management Control Program

    DOD Directive 5010.38, “Internal Management Control Program,” April 14,
    1987, requires DOD organizations to implement a comprehensive system of
    management controls that provides reasonable assurance that programs are
    operating as intended and to evaluate the adequacy of the controls.

    Scope of Review of Management Control Program. We reviewed the
    management control procedures specified in DOD 4000.25-2-M regarding the
    reconciliation of perpetual inventory records of depots and ICPs and the conduct
    of sampling programs to assess the accuracy of on-hand inventory reported in
    the DBOF financial statements. We also reviewed self-evaluations of those
    controls that the Deputy Under Secretary of Defense (Logistics) and DLA
    evaluated in 1996.

    Adequacy of Management Controls. We identified material management
    control weaknesses, as defined by DOD Directive 5010.38, related to the
    reconciliation of depot and ICP inventory records and to the conduct of the
    annual statistical sample for CFO reporting purposes. All recommendations, if
    implemented, will correct the material weaknesses. A copy of the final audit
    report will be provided to the senior officials in charge of management controls
    in the Office of the Secretary of Defense and DLA.

    Adequacy of Management’s Self-Evaluations. DOD has recognized inventory
    control as a high-risk area. The Military Departments and DLA identified
    supply operations as an assessable unit and correctly identified inventory record
    accuracy as a high-risk area. The Deputy Under Secretary of Defense
    (Logistics) and DLA conducted the required self-evaluations, but did not
    specifically report in their FY 1996 annual statements of assurance the
    inadequacies of management controls over the reconciliation of depot and ICP
    inventory records, or the failure to implement the annual statistical sample.
    Management could not explain why these material weaknesses were not
    identified and reported.




                                       23
Appendix B. Summary of Prior Coverage
    Since the DBOF was established in 1991, the General Accounting Office, the
    IG, DOD, and the Military Department audit organizations have published audit
    reports that discuss issues related to DBOF Inventory.



General Accounting Office

    GAO Report No. HR-97-5, “Defense Inventory Management,” February
    1997. This report states that DOD has made some progress in addressing
    inventory management problems identified in prior audit reports, but has not
    achieved the expected benefits of DBOF and other DOD initiatives. Large
    amounts of excess inventory still exist, oversight remains inadequate, and
    financial reports are unreliable. The report concludes that the problems will
    take some time to correct and DOD inventory management therefore remains a
    high-risk area. However, in the short term, DOD needs to improve the
    efficiency of existing inventory systems by focusing on record accuracy. The
    report made no recommendations.



Inspector General, DOD

    This is the fourth in a series of reports resulting from our audit of inventory
    accounts in the FY 1996 financial statements of the DBOF.

    IG, DOD, Report No. 97-102, “Inventory Accuracy at the Defense Depot,
    Columbus, Ohio,” February 28, 1997. This report states that the Defense
    Depot, Columbus, Ohio, did not include 696,380 chemical suits valued at
    $5 1 million in its inventory records. Additionally, the depot records were
    misstated by 1.04 million chemical suits, valued at $71 million. The report
    recommended that DLA research the causes of discrepancies, use a
    redistribution order to process materiel from remote locations, mark storage
    locations in the warehouses, and use the proper procedures for issuing stock.
    DLA generally agreed with the recommendations and stated that actions to
    correct the problems would be completed by September 30, 1997.

    IG, DOD, Report No. 97-159, “Inventory Accuracy at the Defense Depot,
    Susquehanna, Pennsylvania,” June 12, 1997. This report states that custodial
    records of the Defense Depot, Susquehanna, Pennsylvania, did not reflect

                                         24
                                    Appendix B. Summary of Prior Coverage




correct inventory balances for 1,969 consumable items for which management
responsibility had been transferred from the Navy to DLA under the consumable
item transfer program. Consequently, the DLA financial statements were
misstated by $16 million. The depot also retained $1 million in obsolete
inventory and did not assign storage locations to materiel located in a warehouse
shared with the Navy ICP. The report recommended that DLA identify and
dispose of obsolete items, perform a wall-to-wall inventory of items in the
warehouse shared with the Navy ICP, and assign storage locations to materiel
stored there. The DLA agreed with the recommendations and stated that action
would be completed by July 3 1 9 1997.

IG, DOD, Report No. 98-019, “Inventory Record Accuracy and
Management Controls at the Defense Logistics Agency Distribution
Depots,” November 10, 1997. This report states that inventory record
accuracy and management controls were not adequate. Although DLA
developed a plan to assess the overall accuracy of its distribution depot records
for logistical purposes, the plan failed to meet the CFO Act requirements to
assess the dollar value accuracy of the records. Also, DLA did not have the
necessary controls to ensure that all scheduled inventories were completed, that
data transferred from legacy systems to the Distribution Standard System were
accurate, and that standard distribution operating procedures were established.
In addition, the Deputy Under Secretary of Defense (Logistics) did not establish
a standard against which DLA could measure inventory record accuracy at its
distribution depots. As a result, DLA could not accurately measure inventory
accuracy, and distribution depot controls could not be relied on to provide
complete and accurate inventory data. Distribution depot procedures to research
the causes of inventory discrepancies, although effective in correcting the record
balance of the items counted, did not identify the underlying causes of the
record discrepancies. In addition, some depots did not perform the required
causative research. As a result, causative research was of little benefit to
distribution operations.

We recommended that the Deputy Under Secretary of Defense (Logistics)
establish a standard for measuring inventory record accuracy, and that DLA
establish a tracking process to ensure that all inventories are conducted as
planned, ensure the accuracy of data transferred from legacy systems to the
Distribution Standard System, implement standard operating procedures at all
depots, and train depot personnel to use the Distribution Standard System. We
also recommended that DLA revise causative research procedures to use
computer-assisted techniques that focus research efforts on depots and
commodities with large variances. The Deputy Under Secretary of Defense
(Logistics) concurred with our recommendation, stating that the Joint Physical
Inventory Work Group will be tasked to develop an inventory accuracy standard
by October 3 1, 1997.



                                    25
Appendix B. Summary of Prior Coverage




      The Deputy Director, Defense Logistics Agency, concurred with all
      recommendations except one, agreeing to establish a tracking system to ensure
      that all inventories are conducted as planned, to ensure the accuracy of data
      transferred from legacy systems to the Distribution Standard System, to
      implement standard operating procedures al all depots, and to train depot
      personnel to use the Distribution Standard System. The Deputy Director
      partially concurred with the recommendation to revise procedures for
      researching inventory discrepancies, stating that analysis at the NSN and storage
      locator levels would be more useful than focusing research efforts on depots and
      commodities with large variances.

      IG, DOD, Report No. 95-267, “Defense Business Operations Fund
      Consolidated Statement of Financial Position for FY 1994,” June 30, 1995.
      The IG, DOD, was unable to express an opinion on the DBOF FY 1994
      Consolidated Statement of Financial Position because significant internal control
      deficiencies existed and significant instances of noncompliance with regulations
      were found. Inventory was identified as one of the account balances with
      material internal control weaknesses, which prevented the IG, DOD, from
      rendering an opinion. No recommendations were made in this report.

      IG, DOD, Report No. 95-195, “Statement of Financial Position for the
      Defense Logistics Agency Supply Management Business Area of the Defense
      Business Operations Fund as of September 30, 1994,” May 17, 1995. The
      IG, DOD, was unable to render an opinion on the Statement of Financial
      Position. The report concludes that the DLA Supply Management Business
      Area made significant improvements in the valuation, reporting, and disclosure
      of inventory; however, further improvements were needed in the internal
      control structure over transaction processing and follow-up procedures. DLA
      management did not properly perform physical inventory procedures and related
      reconciliations. Physical inventory counts were not always reported to supply
      centers; were reported with different quantities from the observed counts and
      reconciliations; and were canceled without being reported and posted to the
      accountable records. In addition, physical inventory results were not posted or
      were posted in error to the financial and distribution subsystems because the
      reconciliation process and depot inventory systems were not functioning
      properly. No recommendations were made in this report.

      IG, DOD, Report No. 94-161, “Consolidated Statement of Financial Position
      of the Defense Business Operations Fund for FY 1993,” June 30, 1994. The
      IG, DOD, was unable to express an opinion on the DBOF FY 1993
      Consolidated Statement of Financial Position because significant internal control
      deficiencies existed and significant instances of noncompliance with regulations
      were found. The Inventory Held for Sale, Net account and the Inventory Not
      Held for Sale account had a number of internal control problems. In addition to
      valuation and classification problems, many activities had material discrepancies
      in these accounts. Specifically, for the Inventory Not Held for Sale account,

                                         26
                                       Appendix B. Summary of Prior Coverage




    negative inventory balances were reported, and the accuracy of War Reserve
    assets could not be verified. Also, DLA had not effectively implemented an
    internal management control program for reporting the results of physical
    inventories. No recommendations were made in this report.



Army Audit Agency

    Army Audit Agency, Audit Report No. AA 97-86, “FY 96 Army Defense
    Business Operations Fund Financial Statements: Supply Management
    Inventories,” December 31, 1996. This report summarizes the work that the
    Army Audit Agency performed on the Army portion of the FY 1996 DBOF.
    That work included a review of 234 items valued at $1.7 billion at 4 DLA
    distribution depots. The report concludes that about 25 percent of the depot
    records had discrepancies. The report also concludes that the causative research
    conducted by the depots frequently did not identify the root causes for the
    inventory adjustments, and that scheduled inventories were not conducted as
    required by DOD policies. The report made no recommendations.

    Army Audit Agency Audit Report No. 94-470, “Army Defense Business
    Operations Fund FY 1993 Financial Statements,” June 30, 1994. The Army
    Audit Agency disclaimed an opinion on Inventory Held for Sale and Inventory
    Not Held for Sale. The Army Audit Agency could not verify the accuracy of
    the inventory balance because the database of inventory items used to select a
    sample of items for physical inventory included items that were not part of the
    DBOF. Of the 438 items inventoried, 225 items (51 percent) had inaccurate
    balances in terms of quantity or condition. In addition, the Army Audit Agency
    could not ensure the accuracy of War Reserve assets, and other audits conducted
    during FY 1993 identified accountability problems with War Reserve assets.
    No recommendations were made in the report.



Naval Audit Service

    Naval Audit Service Report No. 040-97, “Fiscal Year 1996 Consolidating
    Financial Statements of the Department of the Navy Defense Business
    Operations Fund,” June 1997. This report summarizes the audit work done
    by the Naval Audit Service on the Navy portion of the DBOF financial
    statements. As part of its review, the Naval Audit Service compared physical
    inventories and supply records for 488 items Navy-owned items and found that
    inventory records for 106 items or 21.7 percent of the inventory contained
    discrepancies. The Naval Audit Service attributed most of the discrepancies to
                                       27
Appendix B. Summary of Prior Coverage




      human errors in processing receipt and issue transactions. Personnel at the ICPs
      and storage activities corrected the record balances and initiated research into
      the causes of the discrepancies. The report made no recommendations
      pertaining to inventory accuracy and controls.

      Naval Audit Service Report No. 044-95, “Fiscal Year 1994 Consolidating
      Financial Statements of the Department of the Navy Defense Business
      Operations Fund,” May 30, 1995. This report concludes that the inventory
      records for Inventory, Net at wholesale Navy stock points were not accurate.
      Of 583 sampled items, the quantities of items on hand differed from the supply
      records for 217 (37.2 percent). The Naval Audit Service estimated that the
      financial records were understated by $15.2 million. The report identified
      numerous problems in inventory transaction processing that resulted in the
      inaccurate inventory records. The report recommended that stock points
      aggressively review and correct systemic causes for inventory discrepancies and
      that the Naval Supply Systems Command review pending procurement actions.
      Management concurred and began corrective actions.



Air Force Audit Agency

      Air Force Audit Agency Report No. 96068012, “Inventory Accounts,
      Supply Management Activity Group, Fiscal Year 1996. This report states
      that internal controls over wholesale and retail inventory were adequate to
      properly document inventory adjustments that reconciled inventory physical
      counts with accountable records and to safeguard inventory in storage. Also,
      the physical inventory counts materially agreed with the balances recorded in
      accountable records. However, the DLA inventory managers did not correct
      the causes for wholesale inventory variances or sufficiently research variances to
      identify all causes. The report made no recommendations.

      Air Force Audit Agency Report No. 93068016, “Financial Reporting of
      Fiscal Year 1993 Inventories Within the Supply Management Business
      Area,” August 26, 1994. This report concludes that personnel of the Air Force
      Supply Management Business Area did not accurately support year-end account
      balances, and internal controls were not effective over Air Force Materiel
      Command assets with contractors, physical inventories, and the computation of
      Inventory Not Held for Sale balances. The statistical sample had 508 line items
      and found 224 (44 percent) line items in error. The overall condition of the
      accounting records prevented the Air Force Audit Agency from determining the
      accuracy of inventory account balances reported on the financial statements of
      the Air Force Supply Management Business Area as of September 30, 1993.
      The report recommended actions to improve the accountability for inventory
      with contractors, to modify the automated warehousing system to improve

                                          28
                                   Appendix B. Summary of Prior Coverage




accountability for on-hand inventory, and to evaluate methods used to value and
report inventories of War Reserve Materiel. Management officials generally
agreed with the overall audit results and concurred with the recommendations.




                                   29
Appendix C. Accuracy of On-Hand Stock
Records
   In addition to observing the physical inventories, we performed limited testing
   to determine whether DBOF inventory records were complete. We
   judgmentally sampled inventory storage locations to evaluate the accuracy of the
   storage activities’ locator records. Those audit tests indicated that the inventory
   records for on-hand stock maintained by the DLA distribution depots, Military
   Department depots, and retail storage activities were substantially complete.
   We identified the materiel stored in 2,119 storage locations that were adjacent to
   storage locations visited during the inventory observations. We compared the
   items identified at those 2,119 locations with the information in the perpetual
   inventory records to determine whether the items were included in the records
   of the storage activities.

   Of the 2,119 items reviewed, 2,078 items (98.1 percent) were recorded the
   storage activities’ inventory records. The observed location accuracy rate
   exceeded the DOD standard of 97 percent. For the 41 items that were not
   recorded in inventory records, the storage activities adjusted their records,
   resulting in an inventory gain of $1.1 million.




                                        30
Appendix D. Report Distribution


Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
      Director, Accounting Policy
  Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Public Affairs)
Under Secretary of Defense for Acquisition and Technology
  Deputy Under Secretary of Defense (Logistics)
  Director, Defense Logistics Studies Information Exchange


Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army


Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Auditor General, Department of the Navy


Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force


Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Finance and Accounting Service




                                         31
Appendix D. Report Distribution




Other Defense Organizations (cont’d)
Director, Defense Logistics Agency
Director, National Security Agency
   Inspector General, National Security Agency
Inspector General, Defense Intelligence Agency


Non-Defense Organizations

Office of Management and Budget
Technical Information Center, National Security and International Affairs Division,
  General Accounting Office

Chairman and ranking minority member of each of the following congressional
  committees and subcommittees:

  Senate Committee on Appropriations
  Senate Subcommittee on Defense, Committee on Appropriations
  Senate Committee on Armed Services
  Senate Committee on Governmental Affairs
  House Committee on Appropriations
  House Subcommittee on National Security, Committee on Appropriations
  House Committee on Government Reform and Oversight
  House Subcommittee on Government Management, Information, and Technology,
    Committee on Government Reform and Oversight
  House Subcommittee on National Security, International Affairs, and Criminal
    Justice, Committee on Government Reform and Oversight
  House Committee on National Security




                                          32
Part III - Management Comments
Acting Deputy Under Secretary of Defense
(Logistics) Comments


                            OFFICE   OF   THE   UNDER     SECRETARY    OF    DEFENSE




                                                                                       rl.6   DEC   1991
     ~ECIINIOLOCII
            (L/MDM)



           MEM0FtANDlJI.l    FOR   DIRECTOR,    FINANCE   AND   ACCOUNTING   DIRECTORATE,       WDIG

           SUBJECT :        Response   to   the  Draft  Report   entitled  "Defense  Business
                            Operations    Fund  Inventory   Record   Accuracy,"  dated
                            October 15, 1 9 9 7  (Project  N o . 5FJ-2018.03)


                    This  memorandum  responds  to   your   request   dated  October  15,
           1 9 9 7 . requesti"g crxnmentS a" s u b j e c t draft  report.    This  office
           partially     concurs  with   the  recommendations    in  Section   B.

                 Recommendation          8.1.    Partially       concur.    The  Chairman   of the
           Joint     Physical    I"ve"tory       Work  G r o u p (JPIWG)   was  requested   on
           September 10,       1 9 9 7 to task the JPIWG to develop a DOD i n v e n t o r y
           record     accuracy     standard    during    the     January   1998   meeting.   upon
           adoption      of  the     standard. each     component     will   develop   a  plan and
           time   l i n e to  measure      their    inventory     record   accuracy.

                 Recommendation     B.2.    Non-concur.      With   the   disestablishment    of
           the  DBOF   and   establishment   of   the   Component    Working  Capital    Funds,
           it  will   be  the  responsibility    of   each  of   the   Military   Services  and
           Defense   Agencies   to  establish   a   methodology    to   develop   the  samples
           for  comparison    against   the   inventory    record   accuracy    goal.

                     Recomme"dation B . 3 .           concur.    DOD 4140.1-R. ‘ M a t e r i e l
           M a n a g e m e n t Regulation"      a n d DOD   4000.25-2-M.   "Military     Standard
           TransaCtiOn           Reporting      and    Accounting   Procedures"  direct      the
           Components          to p e r f o r m annual    random   statistical  samples.

                  The   Defense   Logistics   Agency  (DLA)  will   respond   to  your   office
            on  the   findings  and   recommendations  in   Section   A.   We appreciate
            the  opportunity   to   comment  on  this  audit   report   in  draft  form.




                                                   k#R.     Willis
                                                   Acting   Deputy  Under  Secretary
                                                     of   Defense  (Logistics)




                                                   34
Defense Logistics Agency Comments




       MEMORANDUM   FOR   ASSISTANT INSPECTOR GENERAL  FOR   AUDITING
                                 DEPARTMENT OF DEFENSE



       SUBJECT:   Draft Report on Defense Business    Operations Fund
                   Inventory Record Accuracy (Project   N O . 5FJ-2018.03)

              This is in     response to your October 15, 1997, subject      draft
       report.    FOX- any   questions, call. Elaine Parker. 767-6264.




                                                                         iew




                                        35
Defense Logistics Agency Comments




           SUBJECT: Defense Business Operations Fund Inventory Record Accuracy, 5FJ-2018.03

           FINDING A: Inventory Record Accuracy.
           DBOF inventory records were not accurate. An estimated 15.8 percent, or about one of every six
           DBOF inventory records represented by our sampling, was in error (see Appendix A for
           confidence level and precision of estimates.) The errors caused DBOF inventory records to be
           misstated (overstated and understated) by an estimated $3.9 million. The net amount of those
           errors was an estimated $336.3 million understatement of the $89 billion of on-hand inventory
           used to prepare the FY 1996 DBOF financial statements. That net amount of error made the
           value of the sampled portion of the DBOF inventory on the financial statements appear accurate
           because the overstated amounts offset most of the understated amounts. However, the 15.8
           percent error rate represented a material management control weakness.

           The inaccurate perpetual inventory records existed because inventory records maintained by the
           DLA distribution depots and Military Department depots were not reconciled with the inventory
           record maintained by the DLA inventory control pants (ICPs), and because various errors
           occurred in processing inventory transactions. The inaccurate records greatly limited the
           reliability of the financial data. Inaccurate inventory records also distorted the reports used by
           inventory managers who were making decisions to buy materials. The inaccurate records will
           result in Ineffective logistics support when military customers urgently need inventory.

           DLA COMMENTS:
           Partially concur. The conditions which resulted in the inaccurate inventory records between the
           distribution depots and the DLA ICPS have been corrected as reported in our response to the
           recommendations. However, we feel there exists some inconsistencies in the audit finding. The
           finding states that “the inaccurate records greatly limited the reliability of the financial data.”
           This is contradicted by the statement on page 5, “the value reported on the (financial) statements
           is within an acceptable range.” Based on the data presented in the audit, the DBOF Inventory
           value is 95.7% accurate. Since this is within an acceptable range. the audit proceeds to focus on
           inventory record accuracy whereby any deviation between the bin and recorded quantity is in
           error. Using this method of zero tolerance in record accuracy measurement fails to consider the
           magnitude of the error. While the DBOF record accuracy was only 84.2%. the magnitude of
           those record errors was within an acceptable range as is evidenced by the 95.7% inventory dollar
           accuracy. While the DOD logistics community has favored inventory record accuracy as a
           measurement of inventory and logistics processes, we have also tempered it by allowing
           acceptable tolerances, within material stratifications, to account for the “impact” of the error in
           both readiness and financial aspects. While it is certainly ideal to have 100% inventory record
           accuracy, the characteristics of some items do not warrant the expenditures to achieve and
           maintain the Inventory record accuracy at 100%.

           INTERNAL      MANAGEMENT        CONTROL      WEAKNESS:      Partially   Concur




                                                       36
                                            Defense Logistics Agency Comments




ACTION OFFICER: Steven C. S&son, MMLDA, (703) 767-2534
REVIEW/APPROVAL: D. P. Keller, RADM, SC, USN, Executive Director, Logistics
                    Management
COORDINATION: Elaine Parker, DDAI, 76 6264

DLAAPPROVAL:         &,_ DEc                             ,    o   ,997


                           B.R. CHAMEERLZN
                           Rear Adminl, SC, USN
                           Deputy Director




                                    37
Defense Logistics Agency Comments




           SUBJECT: Defense Business Operations Fund Inventory Record Accuracy, 5FJ-2018.03

           Recommendation A.l.: We recommend that the Director, Defense Logistics Agency expedite
           actions to correct the automated location reconciliation program to provide periodic
           reconciliations of the inventory records maintained by the Defense Logistics Agency inventory
           control points with the records maintained by Defense Logistics Agency distribution depots,
           Military Department depots, and other storage locations.

           DLA C O M M E N T S :
           All required changes were made and the quantitative location reconciliation process has been
           operational between the DLA ICPs and the distribution depots operating DSS since July 1997.
           As DSS is implemented in the former service depots, a location reconciliation is scheduled in the
           first month possible regardless of the DLA policy schedule for that particular depot.
           Additionally, DSS is capable ofreconciling the depot records with any MlLSVC ICP system that
           can process the quantitative location reconciliation.

           DISPOSITION:   Action   is   considered   complete:

           ACTION OFFICER: Steven C. Soisson, MMLDA, (703) 767-2534
           REVIEW/APPROVAL: D. P. Keller, RADM, SC, USN, Executive Director, Logistics
                               Management
           COORDINATION: Elaine Parker, DDAI, 767-6264

           DLA   APPROVAL:


                                        Rzx hdmk!, SC, USE,
                                        De~;~i;y i):rcc:or




                                                       38
                                                       Defense Logistics Agency Comments




SUBJECT: Defense Business Operations Fund Inventory Record Accuracy, SFJ-2018.03

Recommendation A.2.: We recommend that the Director, Defense Logistics Agency establish a
schedule for implementing the location reconciliations and for evaluating the causes of
significant discrepancies found during the reconciliations.

DLA COMMENTS:
DLA Policy requires each ICP/depot combination reconcile their records at least once quarterly.
The schedule has not yet been published in the DLAM 4140.2 Vol II, but the appropriate tables
within SAMMS and DSS contain the schedule. The procedures for researching and evaluating
discrepancies have been provided to the ICPs. They will be mcorporated in the DLAM 4140 2
Vol II, during the next scheduled update. A copy of the procedures is available upon request.




                                                        ,I:L   ,FH   , MAB,SG2
                                           AQS, SRM, SCM, NBZ, NN       , PTZ, ND   . NU




DISPOSITION:    Action   is   considered   complete.




                                              39
Defense Logistics Agency Comments




           ACTION OFFICER: Steven C. Soisson, MMLDA, (703) 767-2534
           REVIEW/APPROVAL: D. P. Keller, RADM, SC, USN, Executive Director,   Logistics
                               Management
           COORDINATION: Elaine Parker. DDAI. 767-6264




                                              40
Audit Team Members

This report was prepared by the Finance and Accounting Directorate, Office of the
Assistant Inspector General for Auditing, DOD.

F. Jay Lane
James L. Kornides
Joel K. Chaney
Amy J. Frontz
Anthony Hans
Scott K. Miller
John R. Williams
Frank Sonsini
Karen M. Bennett
Susanne B. Allen
